                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATTONS

                                              CLOSEOUT MEMORANDUM

                                                                                11
                                          i


Case Number: A09050041                                                                      Page 1 of 1




          We received an allegation that an NSF proposal1 requested funding for work already completed
          and submitted to a public forum.2 The subjects responded that the submission of their work to
          the forum was not significant because the submitted work was not peer reviewed, and was
          actually incomplete and incorrect. Although the subjects claimed that.the work could not be
          withdrawn once submitted, the forum does allow such withdrawal. The Subjects claim that the
          funding requested was to complete the described work. The funding requested was indeed of
          short-term duration. The subjects were reminded of the need to accurately describe the state of
          progress on their research goals in their submitted NSF proposals to ensure accurate merit
          review.
          Accordingly, this case is closed.




          1
              Redacted.
          2
              Redacted.



\ISF OIG Form 2 (1 1/02)
